                                                                      U n.i ted tales Departm nl of StaLe
                                                                      , nd the Broadca ting Board of Governors
                                                                      Office of Inspector General
                                                                          JI N 14 2011


Dear Mr. Chairman:

In compliance with Section 232 of the William Wilberforce Trafficking Victims
Protection Reauthorization Act of 2008 (TVPRA), the Department of State Office
of Inspector General (OIG) is pleased to submit this summary of activities and
findings related to trafficking in persons (TIP) for the period of January 1, 2010, to
December 31, 2010. OIG has continued its efforts to coordinate and integrate its
four offices' approaches in pursuit of a coherent and sustainable effort to address
the issue of TIP. Summaries of each office's 2010 activities and findings related to
TIP are detailed below.

OIG Middle East Regional Office (MERO)

In 2009, OIG completed a survey identifying contracts in the MERO area of
responsibilitl susceptible to labor and other forms of trafficking. OIG ranked
countries by volume of contracting and compared this ranking to each country's
tier in the Department's 2009 Trafficking in Persons Report. In 2010, OIG focused
its study on MERO countries outside Iraq, Pakistan, and Afghanistan that have
received the most Department contract funding for the past 3 fiscal years while
receiving proportionally little funding for trafficking programs.

From January to March 2010, OIG examined six contracts in the Persian Gulf for
janitorial, gardening, and local guard services to determine whether Department­
funded contractors or subcontractors were engaged, knowingly or unknowingly, in


The Honorable
     John F. Kerry, Chairman,
           Committee on Foreign Relations,
                 United States Senate.




9 The MERO area of responsibility includes all countries under the Bureau of South Central Asian Affairs, all
countries under the Bureau of Near Eastern Affairs, the Palestinian Territories, and Turkey.
                                                      -2­

acts related to TIP.2 Field work was conducted at U.S . missions in Kuwait, Oman,
Saudi Arabia, and the United Arab Emirates. OIG found no direct evidence that
contractors violated the provisions of the Trafficking Victims Protection Act of
2000 (TVPA) or the Federal Acquisition Regulation (FAR) mandatory clause
52.222-50 (Combating Trafficking in Persons). However, using International
Labor Organization indicators for trafficking, OIG found several contractor
practices that increase the risk of TIP. These practices include coercion at
recruitment and destination (through debt bondage and confiscation of documents),
exploitative conditions of work (including payment and wage issues and bad living
conditions), and abuse of vulnerability (including abuse oflack of education and
lack ofinfonnation). Furthennore, OIG found that four of the six embassies and
consulates are following Federal contracting guidelines to prevent trafficking, but
these guidelines do not specify how to monitor contractors for TIP, so OIG could
not conclude that TIP monitoring is effective. Aside from mandatory citation of
FAR clause 52.222-50 in each contract, contracting officer's representatives do not
have standard procedures to monitor the clause's implementation. Standard
contract language and Department regulations fail to address TIP-related issues
such as passport security and accessibility, wages and allowances, housing quality,
and safety for foreign workers.

From October to November 2010, OIG examined 10 Department contracts for
janitorial, gardening, security/local guard services, and construction for TIP
violations in the Levant. OIG conducted field work at U.S. embassies in Israel,
Jordan, Lebanon, Syria, and at the Consulate General in Jerusalem. At each of
these locations, OIG interviewed contracting officers, contracting officer's
representatives, contractor owners and/or managers, and contract employees. To
detennine whether Department personnel are following Federal guidelines to
effectively monitor Department-funded contractors and subcontractors for
engagement in acts related to TIP, OIG interviewed contracting personnel from the
Bureau of Administration and reviewed relevant Department guidance on TIP,
including the Foreign Affairs Manual and the Foreign Affairs Handbook. OIG also
interviewed management section personnel and regional security officers at each of
the five posts visited. OIG plans to issue this report in early 2011.



2See Performance Evaluation ofDepartment ofState Contracts to Assess the Risk ofTrafficking in Persons
Violations in Four States in the Cooperation Council for the Arab States ofthe Gulf, MERO-I-\\-06, January 2011 .
                                        -3­

In 2010, MERO conducted three evaluations that included an assessment of
potential TIP violations. In September 2010, MERO issued The Bureau of
Diplomatic Security Kabul Embassy Security Force Performance Evaluation
(MERO-A-l 0-11). During this evaluation, OIG found that the Kabul Embassy
Security Force (KESF) contract with ArmorGroup of North America (AGNA)
contains FAR clause 52.222-50 as required. The OIG team developed a
questionnaire to determine whether AGNA is complying with the terms of the
clause. In structured interviews with 69 KESF guards chosen at random, the OIG
team found no evidence that AGNA was recruiting or maintaining labor through
the use of force, fraud, or coercion. In December 2010, MERO issued PAE
Operations and Maintenance Support at Embassy Kabul, Afghanistan,
Performance Evaluation (MERO-I-II-05). OIG found that Pacific Architects and
Engineering Government Services, Inc.' s (P AE) Embassy Kabul operations and
maintenance support contract does not contain the required FAR clause. Using the
same questionnaire, the OIG team interviewed all 13 third-country national
employees (from the Philippines) employed by PAE. The team found no evidence
that PAE was recruiting or maintaining labor through the use of force, fraud, or
coercion. Finally, in January 2011, MERO will issue PAE Operations and
Maintenance Support for the Bureau ofInternational Narcotics and Law
Enforcement Affairs' Counternarcotics Compounds in Afghanistan, Performance
Evaluation (MERO-I-II-02). During this evaluation, the OIG team found that the
required contract clause was added to the PAE task order in July 2009, after it had
been in place for 6 months. In structured interviews with third-country national
P AE employees and guard force personnel at Kunduz, the OIG team found no
indication or evidence that PAE employees or guards have been subjected to TIP,
and no evidence that PAE was recruiting or maintaining labor through the use of
force, fraud, or coercion.

Finally, in 2010, OIG received information to a questionnaire cable collecting data
from contracting personnel at 32 countries in MERO's area of responsibility
regarding contractor adherence to, and Department enforcement of, U.s.
Government and Department acquisition regulations related to preventing TIP.
Based upon an analysis of these data and MERO's fieldwork in eight countries,
MERO will be able to provide reasonable conclusions concerning Department
compliance with TVPRA and possible recommendations for improving
Department policies and procedures to prevent TIP among its contractors and
subcontractors. Depending on the availability of staff resources, MERO plans to
issue this report in the 4th quarter of 20 11.
                                         -4­

OIG Office of Audits (AUD)

The Office of Audits recently contracted with an independent public accounting
firm to audit compliance with TVPRA's Section 232 on contracts awarded in the
Department's Bureau of East Asian and Pacific Affairs. Its results will be a feature
of OIG's reporting on FY 2011 activities.

OIG Office of Inspections (lSP)

As noted in last year's report, ISP designatea TIP as an issue that all inspection
teams would address in the course of their reviews of all embassy and consulate
operations conducted in FY 2010 and FY 2011. This effort, termed "area of
emphasis," is aimed at standardizing approaches across inspections and enabling a
comparative and global treatment of the issue.

In 2010, as in 2009, inspection teams reviewed contracts at inspected embassies
and consulates to determine whether FAR clause 52.222-50 was included.
Embassies inspected in 2010 were Abu Dhabi, Addis Ababa, Amman, Ankara,
Asmara, Bangkok, Beijing, Colombo, Dhaka, Djibouti, Doha, Harare, Hong Kong,
Islamabad, Kathmandu, Kuala Lumpur, Lilongwe, Maseru, Mbabane, Muscat,
Nicosia, Rome, Sana'a, and Vientiane. Area of emphasis questionnaires guided
interviews regarding contracted labor at the inspected missions. Questionnaire
items related to TIP were also added to data collection instruments for the political
and economic/commercial sections of each mission. These questions helped assess
each mission's efforts in working with host governments to deal with trafficking
issues within those countries.

Overall, inspectors confirmed substantial adherence to Department guidance on
contract documentation. Over 90 percent of the contracts reviewed contained FAR
clause 52.222-50. In those locations where inspectors found that contracts and
employee agreements did not contain the language required by FAR clause 52.222­
50, their reports made formal recommendations to amend these contracts to bring
them into compliance. This methodology also led, in some cases, to more in-depth
scrutiny by the team. Inspectors concluded that no additional action was warranted.
                                          -5­

OIG's Office of Inspections continues to refine its inspection procedures to meet
TVPRA Section 232 obligations in 2011 and beyond, including through closer
scrutiny of official residence staff, security guards services, and janitorial services.

OIG Office of Investigations (INV)

The Office of Investigations continues to look into trafficking and sexual
exploitation allegations when they surface as part of large-scale, ongoing
investigations conducted worldwide. Investigations involving violations of the
Foreign Corrupt Practices Act are also being pursued, as some TIP-related
allegations are covered by this act.


                                         Sincerely,



                                       ~       

                                       Harold W. Geisel
                                        Deputy Inspector General
